No.

-

IN THE SUPREME COURT OF THE UNITED STATES

RAUL RAMOS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Raul Ramos, pursuant to Rule 39 and 18 U.S.C. § 3006A(d)(6), asks leave to file
the accompanying Petition for Writ of Certiorari to the United States Court of Appeals for the Fifth
Circuit without prepayment of costs and to proceed in forma pauperis. Petitioner was represented
by counsel appointed under the Criminal Justice Act, 18 U.S.C. § 3006A(b) and (c), in the United
States District Court for the Western District of Texas and on appeal to the United States Court of
Appeals for the Fifth Circuit.
Respectfully submitted this the 21st day of June, 2021.
/s/ George W. Aristotelidis
George W. Aristotelidis
Tower Life Building
310 South St. Mary’s St.
Suite 1910
San Antonio, Texas 78205
(210) 277-1906 - Telephone
(844) 604-0131 – Telefax
jgaristo67@gmail.com
CJA Appointed Counsel

